No.

1-5
>3r

FILED
SEP 2 7 2021

IN THE
SUPREME COURT OF THE UNITED STATES

OFFICE OP THFC<

LINAKER CHARLEMAGNE
Petitioner

MARK S. INCH, SECRETARY,
FLORIDA DEPARTMENT OF CORRECTIONS
Respondents)

ON PETITION FOR A WRIT OF CERTIORARI TO
THE ELEVENTH CIRCUIT COURT OF APPEAL
OF THE UNITED STATES

PETITION FOR WRIT OF CERTIORARI

LINAKER CHARLEMAGNE
DC # M87151
Madison Correctional Institution
382 S.W. MCI Way
Madison, FL 32340-4430

^2-Zj^for mailing
Initials

i

1 righml

v.

Provided to Madison C.I. on

i

QUESTION(S) PRESENTED
1. Whether District Court, departed from essential requirements of law, by not perfecting
service on Petitioner in a timely manner, which denied constitutional rights of due
process.
2. Whether Petitioner was denied right to conflict free counsel at Evidentiary hearing on
Newly Discovered Evidence.
3. Whether Petitioner’s case was a true self defense, based on sworn affidavit, of Cedric
Johnson, sidebar conferences, evidence and investigative reports.

ll

LIST OF PARTIES

[X] All parties appear in the caption of the case on the cover page.

[ ] All parties do not appear in the caption of the case on the cove page. A list of all parties to
the proceeding in the court whose judgment is the subject of this petition is as follows:

NOTICE OF RELATED CASES
There are no related cases pending resolution before any state or federal court.

ill

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASON FOR GRANTING THE WRIT

5

CONCLUSION

5
INDEX TO APPENDICES

APPENDIX A

Sworn Affidavit of Cedric Johnson.

APPENDIX B

District Courts Opinion..

APPENDIX C

Amended § 2254, pgs.4 of 21.

APPENDIX D

Mailing Official - Non-Service Record.

APPENDIX E

Letter of Conflict.

APPENDIX F

Confirmation of a Non-Service.

APPENDIX G

Opinion of the Highest State Court.

APPENDIX H

Opinion of the District Court of Appeal.

APPENDIX I

State Court hearing

lv

TABLE OF AUTHORITIES CITED
Cases
Cuylerv. Sullivan, 446 U.S. 335, 100 S.Ct. 1708 (1980)

3

Townsend v. Sain, 372 U.S., 83 S.Ct. 74.........................

3

Statutes and Rules
Rule 28 U.S.C. § 2254

4

Rule 3.850 .................

4

Rule 8(a)....................

3

Rule 8(b)....................

3

Constitutional Provisions
Fourteenth Amendments of the United States Constitution

3

Sixth Amendment of the United States Constitution

5

v

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[X] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix

to the petition and is

[ ] reported at______________________________________

or,

[ ] has been designated for publication but not yet reported; or,
[X] is unpublished.
The opinion of the United States district court appears at Appendix B to the petition and is
[X] reported at Charlemagne v. State* 2021 U.S. Dist. Lexis 10736: or,
[ ] has been designated for publication but not yet reported; or,
[ ] is unpublished.

[X] For cases from state courts:
The opinion of the highest state court to review the merits appears at Appendix

G

to the

petition and is
[X] reported at Charlemagne v. State. 2019 Fla. Dist. Lexis 1927: or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the 3rd District Court of Appeals appears at Appendix H to the petition and is
[X] reported at Charlemagne v. State. 279 So.3d 808 (Fla. 2019); or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

1

JURISDICTION
[X] For cases from federal courts:
The date on which the United States Court of Appeals decided my case was August 17. 2021.
[ ] No petition fof rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of Appeals on the
following date:____________
and a copy of the order denying
rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted to and including
___________________________________ (date) on
.(date) in
Application No. A .
The jurisdiction of this Court is invoked under 28 U.S.C § 1254(1).

[X] For cases from state courts:
The date on which the highest state court decided my case was November 12. 2019.
A copy of that highest state that decision appears at Appendix G .
[X] A timely petition for rehearing was thereafter denied on the following date: 2019. and a copy
of the order denying rehearing appears at Appendix I .
[ ] An extension of time to file the petition for writ of certiorari was granted to and including.
(date) on
(date) in Application No. A .
The jurisdiction of this Court in invoked under Rule 28 U.S.C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Petitioner’s Sixth Amendment Right to Assistance of Conflict Free Counsel was derived
thereof, where the conflict arose as a result of representation by the Public Defender’s office,
Cuyler v. Sullivan, 446 U.S. 335, 100 S.Ct. 1708 (1980). See Appendix E, where counsel had
known of the conflict of interest, during Evidentiary Hearing, but allowed prejudice to prevail
until after Evidentiary hearing.
In Appendix B, as to Claim One, it was stated by justice or court...’’State misconstrued
this claim; and...the record is not complete...at pg.3 of Appendix B, Rule 8(a), determines
whether an Evidentiary Hearing is warranted under Townsend v. Sain, 372 U.S., 83 S.Ct. 745 to
resolve the conflict.
Petitioner was also denied of his First Amendment, Right to Redress, under Rule 8(b)
where the Petitioner was not perfected service Appendix D and F, where it was demonstrated
and acknowledged in the notice of appeal and judicial notice, Petitioner did expand the record
with Appendix D and E.
Accordingly, under concepts of Mcquiggins v. Perkins; Townsend v. Sain; and Shlup v.
Delo, Petitioner is entitled to Federal evidentiary hearing, with conflict free counsel, under the
Sixth and Fourteenth Amendments of the United States Constitution.

3

STATEMENT OF THE CASE
Petitioner filed a Rule 3.850 motion in the Eleventh Judicial Circuit Court raising (5)
Claims. The Court denied claims (1-4), but held an Evidentiary Hearing on Claim (5), which was
based on newly discovered evidence “a Sworn Affidavit from Cedric Johnson,” the State’s key
witness (See Appendix A).
Petitioner was represented by counsel with conflict, during evidentiary Hearing, after
hearing the Court denied relief.
Petitioner filed a Rule 28 U.S.C. § 2254, the U.S. District Court reviewed and conceded
record was not complete as to Claim (1) (See Appendix B, pg.3).
Petitioner asserts that Claims (2) and (5) conjunctively demonstrate Petitioner’s assertion
of factually innocent of the crime and conviction, where State’s case is primarily rested on the
know false testimony of Cedric Johnson, where the exculpatory evidence was withheld by State,
from jury, such as sidebar conference which demonstrated “Petitioner’s” innocence...Cedric
Johnson had gunshot particles on his hands” (See Appendix C, Amended § 2254, pg.4 of 21).
The U.S. District Court declined to hold Evidentiary hearing.

4

REASON FOR GRANTING THE WRIT
This Court should grant Writ, in the interest of justice, where Petitioner did not receive a
fair Evidentiary Hearing, do not belong assisted by counsel with conflict in violation of the Sixth
Amendment of the United States Constitution where Petitioner was not perfected service. Along
with Evidence and Sworn Affidavit from the surviving victim that will exonerate Prisoner.

CONCLUSION
WHEREFORE, based on the foregoing statement of the case, constitutional and
statutory provisions involved, and authority, the Petitioner requests that this Honorable Court
grant the instant Petition for Writ of Certiorari and resolve the Constitutional questions presented
above.

Respectfully submitted.

^idnaker Chari
DC # M87151
Madison Correctional Institution
382 S.W. MCI Way
Madison, FL 32340-4430
Date: 9>p_j>\e>o~foe*

5

2T7/

(

